  Office of Inspector General
      Audit Report


   WEAKNESSES IN PROGRAM AND
CONTRACT MANAGEMENT CONTRIBUTE
  TO ERAM DELAYS AND PUT OTHER
    NEXTGEN INITIATIVES AT RISK
       Federal Aviation Administration

       Report Number: AV-2012-179
      Date Issued: September 13, 2012
           U.S. Department of
                                                                Memorandum
           Transportation
           Office of the Secretary
           of Transportation
           Office of Inspector General


Subject:   ACTION: Weaknesses in Program and Contract                                   Date:    September 13, 2012
           Management Contribute to ERAM Delays and Put
           Other NextGen Initiatives at Risk
           Federal Aviation Administration
           Report No. AV-2012-179

  From:    Jeffrey B. Guzzetti                                                       Reply to
                                                                                     Attn. of:   JA-10, JA-60
           Assistant Inspector General
              for Aviation and Special Program Audits

           Mary Kay Langan-Feirson
           Assistant Inspector General
             for Acquisition and Procurement Audits

    To:    Acting Federal Aviation Administrator


           Since 2002, the Federal Aviation Administration (FAA) has been developing the
           $2.1 billion En Route Automation Modernization (ERAM) program to replace and
           significantly enhance the existing hardware and software at facilities that manage
           high-altitude air traffic. ERAM is a foundational component of FAA’s Next
           Generation Air Transportation System (NextGen) and is critical to meeting FAA’s
           goals for increasing airspace capacity and reducing flight delays. We have testified
           on several occasions before Congress that delays in implementing ERAM could
           significantly impact the cost and pace of NextGen 1 implementation. FAA planned
           to deploy ERAM to the Nation’s 20 en route facilities by the end of 2010.
           However, due to software problems that were identified early on at its two key test
           sites in Salt Lake City, UT, and Seattle, WA, FAA has delayed ERAM’s schedule
           beyond original completion dates.




           1
               OIG Testimony Numbers CC-2010-048, “Challenges in Meeting FAA’s Long-Term Goals for the Next Generation
               Air Transportation System,” April 21, 2010, CC-2011-016, “Actions Needed To Meet FAA’s Long-Term Goals for
               NextGen,” February 16, 2011, and CC-2011-036, “Progress and Challenges in Developing and Transitioning to the
               Next Generation Air Transportation System,” October 5, 2011. OIG reports and testimonies are available on our
               Web site: http://www.oig.dot.gov.
                                                                                                                       2


Given the importance of ERAM for transforming the National Airspace System
(NAS), the Chairman and Ranking Member of the House Committee on
Appropriations, Subcommittee on Transportation, Housing, and Urban
Development and Related Agencies, requested that we assess FAA’s progress with
implementing ERAM. Accordingly, our audit objectives were to (1) evaluate
FAA’s progress in correcting ERAM’s persistent software problems; (2) evaluate
whether the ERAM contract is designed and administered effectively to manage
costs and achieve desired outcomes; and (3) identify the risks that ERAM’s delays
pose to FAA’s plans to implement critical NextGen initiatives.

We conducted this audit in accordance with generally accepted Government
auditing standards. Exhibit A details our scope and methodology. Exhibit B lists
the entities we visited or contacted.

RESULTS IN BRIEF
FAA’s multibillion dollar ERAM program has experienced software problems that
have impacted the system’s ability to safely manage and separate aircraft. As a
result of the delays at the key sites, FAA now projects that ERAM will be almost
4 years behind schedule, with an uncertain final completion date. If problems
persist, cost increases could reach in excess of $500 million and interfere with
program execution. FAA’s problems in advancing ERAM are attributable to a
number of fundamental program management weaknesses that have impeded the
Agency’s ability to effectively implement ERAM and effectively manage other
major acquisitions. These weaknesses include (1) setting an unrealistic schedule,
(2) allowing ERAM to successfully pass Government Acceptance 2 even though
testing at the Agency’s Technical Center was limited and could not replicate actual
field conditions, (3) ignoring early warning signs of trouble, such as an
unexpectedly high number of problem reports, and (4) a lack of attention to
identify, communicate, and fix ERAM’s problems. This was compounded by a
management culture that was slow to fully acknowledge the extent of ERAM’s
problems or communicate them to senior FAA management.

ERAM’s problems are also traceable to weaknesses in its contract, which is not
structured or administered to effectively manage costs and achieve desired
program outcomes. Due to insufficient acquisition planning, FAA did not fully
adopt best practices that would have permitted more effective contract
management when designing the ERAM contract structure. For example, FAA
structured ERAM as a traditional, large-scale contract with enormous contract

2
    Government acceptance of ERAM by the FAA Technical Center requires meeting specific established criteria. These
    criteria include successfully completing developmental testing activities per the Statement of Work, listing all
    problem trouble reports, demonstrating that all contractual requirements are satisfied, and completing both functional
    and physical configuration audits. After Government Acceptance is reached, FAA assumes all costs, including fixing
    any additional problems discovered.
                                                                                                                          3


tasks that span several years instead of using modular contracting, which would
divide the contract into manageable segments for better control. In addition, FAA
has still not fully finalized the costs for 16 of 57 contract tasks, 3 yet the Agency
authorized the contractor to begin work on them—a practice that gives the
contractor little incentive to control costs. Additionally, FAA has awarded the
contractor over $150 million in cost incentives despite cost overruns, delays, and
software problems. Problems with the ERAM contract were further compounded
by weaknesses in FAA’s acquisition workforce and poor contract management
practices. These include (1) high contracting officer (CO) turnover and heavy
reliance on support service contractors, (2) poorly organized and incomplete
contract files, and (3) limited reviews of vendor invoices that failed to detect
unallowable charges, including nearly $69,000 in fraudulent travel expenses.

ERAM’s delays pose significant risks to FAA’s plans to implement critical
NextGen initiatives because of complex interdependencies between ERAM and
other key systems needed to advance NextGen. Continued problems will affect the
pace of critical efforts such as Data Communications (DataComm), System Wide
Information Management (SWIM), and Automatic Dependent Surveillance -
Broadcast (ADS-B). ERAM delays will also impact FAA’s ability to develop
other NextGen-related software enhancements and other improvements, such as
trajectory-based operations 4 and the development and transition to a common
automation platform for FAA air traffic facilities. In addition, ERAM’s schedule
delays and corresponding cost growth have forced FAA to reallocate millions in
funds from other capital NextGen programs. Despite the significant program risks
and unresolved issues—and that FAA plans to allocate more than $500 million to
align and integrate NextGen-critical initiatives with ERAM—FAA has not fully
assessed the impact of these delays on other programs’ costs and schedules.

We are making a series of recommendations to improve ERAM’s contract
structure and oversight and reduce the associated risks to future NextGen related
programs.

BACKGROUND
ERAM is a key NextGen enabling program for processing high-altitude air traffic5
flight information across the NAS. It replaces HOST, the legacy en route
automation system, which consists of a 40-year-old computer hardware and




3
    As of January 17, 2012.
4
    Trajectory-based operations focus on more precisely managing aircraft from departure to arrival with the benefits of
    reduced fuel consumption, lower operating costs, and reduced emissions.
5
    En route airspace is high-altitude traffic typically above 10,000 feet, where aircraft reach their cruising altitudes and
    fly as direct a route as possible between their departure and destination points.
                                                                                                        4


software system, plus a backup, and more than 800 computer display workstations
(see figure 1) at 20 of FAA’s Air Route Traffic Control Centers (ARTCCs). 6

In 2002, FAA awarded ERAM as a sole Figure 1. ERAM Air Traffic
source contract to Lockheed Martin. The Controller Workstation
ERAM contract is a hybrid of multiple
contract types, including fixed-price
incentive, cost-plus-fixed-fee, cost-plus-
incentive-fee, and time-and-materials.
However, its software development
portion relies primarily on a cost-plus-
incentive-fee (CPIF) contract type, which
requires the Government to shoulder much
of the program’s cost risk. The ERAM
contract offers several types of fees to
motivate the contractor to effectively
manage costs, schedule, and performance.
These fees include: (1) cost incentive fees
for delivering contractual items below pre- Source: FAA
defined cost targets, (2) schedule incentive
fees for achieving important schedule milestones, and (3) performance incentive
fees for meeting specific performance criteria.

Initially, FAA planned to implement both ERAM hardware and software (release
1) beginning in fiscal year 2009 at all centers nationwide and reach operational use
by December 2010. Software release 1 was intended to replicate the functionality
of the current HOST system and add a few new capabilities. Software releases 2
and 3, which would provide additional capabilities, were to become available to
operational sites in September 2009 and September 2010, respectively, concurrent
with release 1. FAA plans to develop a series of additional software releases
through 2020 to enhance ERAM capabilities and support planned NextGen
initiatives.

In June 2005, we reported on the risks facing the ERAM program and made a
number of recommendations, including that FAA maximize the use of fixed price
agreements, withhold incentive payments to the contractor until it met
Government criteria, and defer work on software development for future
capabilities that had yet to be defined or priced. 7




6
    ARTCCs, also referred to as en route centers or centers, control high-altitude air traffic nationwide.
7
    OIG Report Number AV-2005-066, “FAA’s En Route Modernization Program Is On Schedule but Steps Can Be
    Taken to Reduce Future Risks,” June 29, 2005.
                                                                                   5


FAA HAS NOT FULLY RESOLVED CRITICAL ERAM SOFTWARE
ISSUES, CAUSING SIGNIFICANT COST OVERRUNS AND
DELAYS AND EXPOSING FUNDAMENTAL PROGRAM
MANAGEMENT WEAKNESSES
FAA has yet to fully resolve critical software-related issues that impact ERAM’s
ability to separate and control aircraft. These continuing problems raise concerns
about elements of ERAM’s design, as well as the system’s backup architecture. As
a result, ERAM’s nationwide implementation has been significantly delayed,
resulting in increased costs. FAA now projects that ERAM will be almost 4 years
behind schedule, with an uncertain final completion date. If problems persist, cost
increases could reach in excess of $500 million. ERAM’s problems are directly
traceable to a number of underlying program management deficiencies that
impede the Agency’s ability to implement ERAM and effectively manage other
large-scale acquisitions.

Software Problems With ERAM’s Core Capability for Managing Traffic
Persist
FAA has been using ERAM to continuously control live traffic at Salt Lake City
since October 2010 and at Seattle since December 2010. More recently, Denver,
Minneapolis, and Albuquerque centers have also begun using ERAM on a full-
time basis. However, FAA has continued to identify significant software problems
related to functions that are critical to safely separating and managing air traffic.
These include errors that tag flight data to the wrong aircraft, incorrect display of
flight information to controllers, and problems with aircraft hand-offs between
controllers within a facility and between facilities with adjacent airspace. (See
figure 2 for a data error example.)
                                                                                                                    6


    Figure 2. Example of Incorrect Data on ERAM Controller Screen




                  Source: FAA (textboxes added by OIG)
                  Event Description: Two aircraft (tagged as AAL415 & QXE349) merge
                  on the screen at different altitudes and vectors. ERAM then produces a
                  “ghost” target TFC6253 (a false target). This series of non-conflicting
                  events activates a conflict alert for the controller’s attention.

                  Controller’s Concern: There is no reason for ERAM to cause an active
                  conflict alert in any one of these scenarios; consequently, this is a
                  significant distraction to the controller.

Because of these problems, controllers at these two key test sites have been forced
to rely on a large number of workarounds, 8 temporary fixes that increase their
workload and distract their attention away from controlling traffic. For example, if
a data block—aircraft and flight plan information displayed to the controller—is
paired to the wrong aircraft, a controller must manually re-enter the flight
information for one or more aircraft. This cumbersome process increases the risk
for data entry errors and, more importantly, takes the controller’s focus away from
the primary task of managing and separating aircraft. FAA continues to work on
these problems and to limit the number of workarounds.

To address these persistent problems with ERAM, FAA developed a series of
corrective action plans, revised schedules, and milestones. The Agency also
responded with numerous ERAM software builds to correct the problems and
spent an average of nearly $16 million per month from January through June 2011
on these efforts. However, the total cost to complete ERAM remains uncertain.
Table 1 chronicles ERAM’s progress and setbacks since March 2010.

8
    A workaround is a method or series of steps to correct or manage an ERAM software deficiency or faulty capability.
    It must be executed each time the problem occurs.
                                                                                                   7


Table 1. Chronology of Significant ERAM Events, March 2010–
January 2012
 Timeframe      Significant ERAM events
 Mar–Dec       • FAA places moratorium on new ERAM software builds to focus on fixing the
 2010            numerous problems affecting air traffic management and system stability.
               • ERAM achieves continuous operations at Salt Lake City, beginning on October 19.
               • FAA achieves continuous operations at key test sites and conducts preliminary
                 Independent Operational Assessment (IOA), a prerequisite for continuing
                 deployment at additional sites.
               • Between October and December, Salt Lake City and Seattle both experience critical
                 ERAM system failures caused by software problems. Seattle falls back to the legacy
                 system, pending an emergency ERAM software build.

 Jan–Aug       • FAA’s IOA team finds that ERAM is “not operationally ready for national
 2011            deployment.” The team determines that there are 17 hazards that must be fixed or
                 mitigated before ERAM is ready for deployment to additional sites.
               • Despite the team’s warning, FAA declares prematurely that ERAM is ready for
                 further deployment. FAA develops an action plan to fix or mitigate the identified
                 hazards and complete initial operations at three new sites. However, FAA again
                 postpones using ERAM at the new sites—even on a limited basis—due to delays
                 delivering new software.
               • FAA and the National Air Traffic Controllers Association (NATCA) establish working
                 groups to improve ERAM problem analysis, prioritization, and implementation. The
                 workgroups call for a halt to FAA’s plans to deploy ERAM at new sites due to
                 concerns about ERAM’s ability to maintain key test site operations. FAA cancels
                 plans to begin operations at three new sites planned for April 2011.
               • NATCA and FAA program officials agree on a definition of ERAM’s “core
                 functionality” and develop a plan to address 117 issues before restarting limited
                 operations and deploying at new sites. FAA and Lockheed Martin develop and begin
                 implementing software builds to address the problems.

 Sept–Nov      • FAA revises the implementation schedule again and plans to begin operational use
 2011            of ERAM at 6 new sites in December 2011—with a total of 11 planned for FY12.
               • On November 21, Salt Lake City suffers another critical software failure and falls
                 back to the legacy backup system for several hours. FAA suspends an ongoing IOA,
                 and transitions key test sites to an earlier ERAM software version, pending fixes.
               • Testing of an emergency software build reveals a previously undiscovered, critical
                 problem, present in the software for at least 1 year. This problem could have caused
                 critical failures in one or more new sites preparing to use ERAM.
 Dec 2011 –    • On December 22, FAA completes IOA re-assessment, which allowed Denver,
 Jan 2012        Albuquerque, and Minneapolis to begin using ERAM on a limited basis in late
                 December. The additional three sites planned for December were rescheduled for
                 January 2012.

Source: OIG analysis
                                                                                                                          8


Between December 2011 and April 2012, after continuing to fix ongoing software
problems, ERAM began limited operations 9 at seven additional sites—Denver,
Minneapolis, Albuquerque, Chicago, Oakland, Los Angeles, and Houston. FAA
program officials decided that the Agency should “pause” to assess the new sites’
progress toward continuous operations for the remainder of fiscal year 2012 before
continuing deployment to other sites. This has proven to be a prudent decision in
that Seattle experienced two new critical system failures in late March and early
April 2012. FAA has now shifted the deployment dates for the four remaining
fiscal year 2012 sites—New York, Indianapolis, Kansas City, and Miami—to
fiscal year 2013.

ERAM’s persistent problems raise questions about whether elements of the
system’s overall design—particularly functions related to tracking aircraft and
displaying information to controllers—could be contributing to these problems.
Our work on FAA’s Standard Terminal Automation Replacement System
(STARS), 10 which uses the same aircraft tracking software (tracker) 11 as ERAM,
found similar problems, such as data tags detaching and not connecting with the
correct aircraft. After we discussed these similarities with Lockheed Martin and
FAA program officials, the Agency tasked MITRE 12 to examine the current
ERAM tracker’s performance parameters and accuracy. MITRE’s interim report
has identified additional potential issues and plans to complete its initial
assessment in the summer of 2012. Lockheed Martin reports that it has made nine
changes to the tracker. These tracker issues could impact FAA’s ability to
integrate new satellite-based surveillance systems, such as ADS-B, with radar
information for use by controllers. The performance of the ERAM tracker—and its
integration with satellite based systems—is an important watch item for NextGen.

ERAM’s repeated software failures and the recent discovery of a previously
unidentified serious hidden software defect—one that could have caused a critical
failure at one or more of the new operational sites—calls into question FAA’s
plans to remove the legacy backup system. ERAM’s primary and backup
channels 13 suffered multiple failures during live operations—such as both
channels going down simultaneously and one channel taking down the other. Each

9
     Limited operations are the initial operational use of ERAM to control live air traffic. It begins with 4- to 8-hour runs
     during weekday mid-shifts, progresses to 48-hour runs on weekends, and then transitions to weekdays and longer
     periods. Limited operations end after continuous operations are achieved, with no intent to fall back to legacy
     systems.
10
     FAA and Department of Defense air traffic controllers use STARS to control terminal traffic. The terminal
     environment controls aircraft taxiing, including departures and arrivals, up to 50 miles within an airport’s vicinity.
11
     The tracker is a complex software algorithm that uses surveillance sources, such as radar or ADS-B, to display
     information on an air traffic automation system display.
12
     MITRE Corporation manages a Federally Funded Research and Development Center (FFRDC) for the FAA known
     as the Center for Advanced Aviation System Development (CAASD). CAASD is a unique organization that assists
     FAA with scientific research and analysis.
13
     The ERAM system operates with two identical and interlinked data paths, or channels, for processing and
     distributing flight and radar data used by the air traffic controllers. Each path provides full functionality. However,
     one is designated as primary for facilities’ general use, and the other is used as a backup for the primary.
                                                                                                             9


failure resulted in a brief loss of air traffic control. While transitioning from the
legacy system to ERAM, the Agency relied on a separate, dissimilar hardware and
software system, known as the Enhanced Backup Surveillance (EBUS) system.
However, once ERAM is fully operational, FAA planned to remove EBUS,
thereby leaving ERAM with a single backup channel. Given ERAM’s history of
repeated system failures, many controllers, technical operations personnel, and
testing personnel have argued that FAA should modify and retain EBUS as an
additional backup mechanism, at least until ERAM is more mature. FAA’s
December 2011 Independent Operational Assessment (IOA) 14 report also
highlighted the need for a dissimilar backup system. In response, FAA’s ERAM
program office assessed requirements, made changes, and has deployed
modifications needed to retain EBUS after the legacy system is decommissioned.
FAA has stated that it is continuing to assess long-term alternatives for a
dissimilar backup system.

ERAM’s Problems Have Caused Schedule Delays and Cost Overruns
ERAM’s continued problems and FAA’s difficulty in resolving them have resulted
in significant schedule delays and cost overruns. In June 2011, FAA senior
management decided to continue the program and rebaselined ERAM, estimating
that the cost to complete the program would increase by an additional
$330 million. FAA is now planning to declare the system fully functional and
operationally ready at the national level in 2014—a slip of almost 4 years
(44 months) from the original schedule. However, FAA’s plans remain fluid and
continue to change.

Since rebaselining ERAM, FAA continued to identify significant software-related
problems. Our work and MITRE’s ERAM assessment suggest that if delays
continue, cost growth could be in excess of $500 million with completion delayed
until 2016. ERAM will continue to face substantial risk for cost growth, schedule
delays, and performance shortfalls as FAA fully deploys the system, especially to
more complex sites. In particular, Initial Operating Capability (IOC) only marks
the milestone where controllers begin to use the system on a limited basis to
manage traffic; therefore, significant risk and work still lie ahead before full
deployment. The ERAM Director of Program Operations stated that significant
additional software problems are likely as more sites begin to use the system. In its
report, MITRE also cautioned that additional time and resources could be required
when implementation moves to larger sites.

For example, ERAM’s performance at sites such as those in Chicago and Los
Angeles will be a driving factor for potential future delays and cost overruns.

14
     FAA Office of Independent Safety Assessment conducted an IOA for the ERAM system, which was conducted at
     Salt Lake City Air Route Traffic Control Center (ARTCC) (ZLC) and Seattle ARTCC (ZSE) and issued its final
     report on March 18, 2011.
                                                                                                       10


These facilities manage airspace that is divided into smaller and more heavily
congested sectors, which could exacerbate existing problems and make
workarounds more complicated.

FAA’s decision to continue concurrent software development and introduce new
capabilities, while attempting to fix problems, has further compounded difficulties
in implementing ERAM. In 2005, we proposed that FAA focus on its primary
objective of providing a replacement for the HOST legacy system, and wait to
pursue additional capabilities in future developments. 15 However, FAA and
Lockheed Martin have continued to add new capabilities—such as those to
support more advanced NextGen requirements—while simultaneously fixing core
functionality issues. This overlapping software development and deployment
increases the likelihood of introducing problems into subsequent software builds
or of re-introducing previous problems. To mitigate these problems, FAA is
implementing plans to more thoroughly evaluate software releases before
deploying them.

ERAM’s delays will also result in sustaining the HOST legacy system longer than
planned, forcing FAA to incur additional costs to maintain two different
automation systems (HOST and ERAM). HOST was originally envisioned to be
decommissioned in December 2010, but FAA will need to maintain the system
until at least 2014. According to FAA, costs for maintaining the HOST system
averaged $1.4 million per month during the period of December 2010 to May
2011. In addition, as a result of retirements and normal personnel turnover, many
facilities face challenges in staffing maintenance technicians for HOST. As a
result, FAA extended legacy system training at the FAA Training Academy
beyond its original plan. FAA Training Academy officials stated that experienced
maintenance technicians are retiring and they are having difficulty finding
qualified instructors. Recent progress at the two key sites, Salt Lake City and
Seattle, has allowed FAA to decommission both legacy systems at these sites.

ERAM’s Problems Are Attributable to Fundamental Breakdowns in
Program Management
FAA’s cost, schedule, and performance problems with ERAM are attributable to
breakdowns in its program management, execution, and oversight. Up until
December 2009, and well after Government Acceptance, FAA reported that
ERAM was on track, or ahead of schedule, even though there were already serious
problems with the program. Our work shows that FAA did not establish effective
controls or useful milestones during ERAM’s planning and deployment stages to
address problems and ignored early warning signs such as a higher than expected
incidence of problem reports. As a result, when significant problems occurred,

15
     OIG Report Number AV-2005-066, “FAA’s En Route Modernization Program Is Oon Schedule Bbut Steps Can Be
     Taken To Reduce Future Risks,” June 29, 2005.
                                                                                                              11


FAA was not well positioned to address them. The ERAM experience represents
important lessons learned for FAA as it develops and implements even more
complex software intensive systems for NextGen that are expected to
fundamentally change the way air traffic is managed. For example:

• FAA underestimated the complexity of implementing ERAM and ignored
  early warning signs of trouble. FAA and its contractor significantly
  underestimated the difficulty in fielding ERAM and were overly optimistic that
  they could fully field all 20 sites in just over 1 year. Specifically, FAA and
  Lockheed Martin falsely assumed that fielding ERAM as a one-to-one
  replacement for HOST—a system that has evolved over the 40 years of its
  operational life—would be manageable. FAA also dismissed or ignored early
  warning signs of trouble during site deployment, working instead towards the
  goal of reaching milestones early. For example, ERAM achieved the Site
  Acceptance milestone at the Salt Lake City site in April 2008—8 months early,
  but with a higher than expected number of problem reports. As a result, FAA
  has stopped implementing monthly software builds twice in order to fix
  specific problems with the system, which has delayed implementation.

• FAA did not adequately test ERAM at the Technical Center prior to
  accepting the system for the Government and releasing the software to the
  key test sites. FAA allowed ERAM to successfully pass Government
  Acceptance even though testing at the Agency’s Technical Center was limited
  and did not replicate actual field conditions. Government Acceptance is
  critically important because it is the point where the Government assumes full
  responsibility for paying for and fixing any new problems that are discovered.
  FAA management did not account for testing limitations at the Technical
  Center, and as a result, the Agency lacked a full understanding of the maturity
  and stability of the software after testing. 16 Further, FAA did not sufficiently
  test the tracker, which could be a contributing factor to ERAM’s problems to
  date. Also, robust testing with live traffic and active controllers at one or more
  of FAA’s facilities was not a prerequisite for Government Acceptance. As a
  result, the software left the Technical Center and was released to the key test
  sites with a significant, and undetermined, series of defects. FAA recognizes
  this problem, and among other things, is planning to improve the quality of
  testing by introducing a new test model and adjusting times to implement the
  test process.

• FAA did not set realistic expectations regarding what would be required
  to implement ERAM. The ERAM program office did not clearly
  communicate that the initial software would be relatively immature and was

16
     For example, FAA tested and simulated the basic ERAM operating software but did not fully test the interface
     requirements for linking and processing radars, different automation platforms, or multiple airspace sectors.
                                                                                 12


   not ready for operational use, and that site personnel and controllers would be
   expected to further test, identify problems, and evaluate fixes to the software.
   FAA’s failure to set realistic expectations for facility management and staff at
   the key sites negatively impacted user confidence in the system. Further, the
   use of operational runs at key test sites for additional problem identification
   and resolution was extremely labor intensive and adversely affected the site’s
   confidence in the maturity, stability, and operational suitability of the system.
   Moreover, FAA failed to convey the fact that ERAM would differ significantly
   in both appearance and function from HOST. As a result, controllers expected
   a system that would look and act like the legacy system, rather than a
   completely new system with a wide range of new capabilities. This failure to
   set clear expectations contributed to the problems the key test sites experienced
   when operational testing began, and also contributed to an unexpectedly high
   number of software problem trouble reports.

• FAA used ineffective milestones for measuring progress with ERAM.
  FAA’s key milestones for measuring progress with ERAM, such as Initial
  Operating Capability (IOC), do not accurately portray the current progress of
  the program. For example, FAA identified IOC at the two key sites as an
  important program milestone and the pivot point for further deployment.
  However, this benchmark has not proven an effective indicator of progress
  because the key sites experienced multiple failures after the milestone was
  achieved. IOC meant that the system was only ready for very limited control of
  live air traffic. Moreover, after achieving this status, the key sites began a
  measured transition from limited operations (running for a period of 4–48
  hours during off-peak times), to extended operations (running for 48 hours for
  1 to 2 weeks, 24 hours a day), and eventually to continuous operations. Yet, the
  success of this transition was site specific, as it depended on individual site
  requirements and the resolution of site-specific software problems before the
  system became fully operational. Moreover, the process of successfully
  achieving continuous operations is also site specific and requires a significant
  amount of time to achieve. Therefore, the use of IOC for tracking progress
  with ERAM gave FAA decision makers a false sense of confidence in the
  maturity of the system when in reality, much work and time still remained at
  the key sites and beyond.

   For example, on April 14, 2012, FAA declared IOC at Houston center on the
   first ERAM software release that enabled controllers to use ADS-B. However,
   software problems identified in testing have prevented the use of ERAM
   during daytime and peak operation periods and will likely result in delays in
   using ERAM for full-time operations. The problems may also delay the
   opportunity for more robust testing of ADS-B with ERAM. Houston center is
   currently using the legacy system to control air traffic that are ADS-B
   equipped and operate in the Gulf of Mexico servicing oil platforms.
                                                                                 13


   FAA’s use of vague, confusing, and ineffective milestones could become a
   larger concern as FAA begins tracking the progress and implementation of
   multiple interdependent programs. These include SWIM and DataComm,
   which are necessary to achieve NextGen-related capabilities.

• FAA’s Acquisition Management System (AMS) does not adequately
  establish criteria for Government Acceptance. FAA’s AMS does not
  provide specific guidance to assist program managers in accepting large
  software-intensive programs such as ERAM from a contractor. Our discussions
  with FAA officials found that Government Acceptance is defined not by AMS
  but rather by the individual program manager for each acquisition and its
  corresponding contract. As a result, one FAA program’s definition of
  Government Acceptance can likely be inconsistent with another program’s
  definition. In the case of ERAM, Government Acceptance was declared before
  the system was adequately tested with other air traffic systems and in an
  operational environment. As a result, FAA had little understanding of what it
  would take to deploy this complex new system.

• Problems with FAA’s management culture contributed to ERAM delays.
  ERAM’s problems indicate a management culture that did not fully
  acknowledge the extent of ERAM’s problems or effectively communicate
  problems to senior FAA management. Our discussions with FAA officials and
  staff at air traffic facilities revealed that staff and managers routinely did not
  share bad news about ERAM with FAA senior management and that senior
  program officials at the headquarters level actively withheld and suppressed
  bad news from being reported to higher levels. Further, site personnel stated
  that they felt pressure from the program office to maintain schedules and were
  uncertain of the program office’s commitments to fix discovered problems.
  These concerns were exacerbated by poor communication with the field
  regarding new software releases, discovery of new problems, and the
  recurrence of old problems that had already been fixed. Consequently, trust
  between program management and the sites deteriorated during critical periods
  of ERAM’s deployment. In response, FAA took actions to address many of
  these problems by appointing a new Director of Program Operations and
  ERAM Program Manager. Our discussions with FAA staff at several facilities
  found a consensus that the program office’s efforts have improved the
  effectiveness of decision making authority, oversight, and communications.
                                                                                                                   14


ERAM’S CONTRACT IS NOT STRUCTURED OR ADMINISTERED
TO EFFECTIVELY MANAGE COSTS AND ACHIEVE DESIRED
OUTCOMES
ERAM’s problems are also attributable to weaknesses with the ERAM contract,
which is not structured or administered to effectively manage costs and achieve
desired program outcomes. Due to insufficient acquisition planning, FAA did not
fully adopt best practices when designing ERAM’s contract structure that would
have permitted more effective contract management. In addition, weaknesses in
FAA’s acquisition workforce and poor contract management practices have led to
insufficient oversight of the multibillion-dollar ERAM contract.

ERAM’s Contract Structure Reduced FAA’s Ability To Effectively
Manage the Contract
FAA did not manage ERAM’s cost, schedule, or performance effectively because
it did not fully adopt best practices for information technology (IT) acquisitions
when designing ERAM’s contract structure (see table 2).

Table 2. Weaknesses in ERAM’s Contract Structure

 Best practices for structuring contracts                     Weaknesses in ERAM’s contract structure
 Modular contracting should be used to                        FAA did not divide ERAM into manageable
 divide major systems acquisitions into                       contract segments, and it develops software
 manageable contract tasks completed every                    releases concurrently, which increases
 6–12 months.                                                 interface and inoperability risks.

 Contract Line Item Numbers (CLINs) and                       ERAM’s CLINs were too large, covered too
 Contract Subline Item Numbers                                long a time span, and were not divided
 (SubCLINs)—with clear cost, schedule, and                    sufficiently into SubCLINs to manage costs,
 performance objectives—should be used to                     schedule, and performance.
 fund separate deliverables and integral parts
                                         17
 of deliverables for major acquisitions.

 Scope, costs, and contract terms should be                   FAA has not always definitized scope and
 definitized (or finalized) in a timely manner.               costs in a timely manner.

 Incentives should be designed to motivate                    FAA paid the contractor over $150M in cost
 the contractor to achieve schedule, cost and                 incentives, despite software problems, delays,
 performance goals. These incentives should                   and cost overruns. Incentive fees were not
 be awarded regularly to offer continuous                     tied to predetermined goals that are evaluated
 motivation to the contractor.                                at regular intervals.

Source: OIG analysis




17
     A CLIN is a specific unit of work to be performed by the contractor as a pay item. SubCLINs are used to facilitate
     payment, delivery tracking, contract funds accounting, or other management purposes. Each SubCLIN has its own
     delivery schedule, period of performance or delivery date, and unit or total single price.
                                                                                                                15


FAA Did Not Design the ERAM Contract Using Manageable Contract
Segments
FAA did not divide ERAM into manageable contract segments—an approach
known as modular contracting—when designing the program. However, modular
contracting has been recommended by Federal guidance for over a decade 18 and is
an industry best practice to reduce operational risks and better control costs. This
approach involves dividing the work for large IT contracts into discrete,
contractual segments with firm, short-term performance, cost, and schedule
objectives.

While FAA partially applied modular concepts to ERAM’s software development,
it did not design a modular contract structure with which to manage it.
Specifically, ERAM software is built using spiral development, a “build a little,
test a little” approach that involves incremental phases of code design. However,
the ERAM contract does not include these incremental contract objectives and
related cost targets or incentives, so it is difficult for the ERAM program office
and the contractor to understand when deliverables are due and at what agreed-
upon cost. The lack of a modular approach can also create interface and
interoperability risks and require more oversight of the contractor. For example,
FAA is developing multiple software releases at once to reduce development time,
rather than completing, implementing, and troubleshooting one software release
before it initiates another.

FAA acquisition officials stated that the ERAM contract was not structured in a
more modular fashion because the task of replacing the existing HOST system was
too monumental and complex to be delivered in the short increments required by
modular contracting (release cycles of 6 to 12 months). FAA also said that the
modular contracting concepts strongly recommended in 2010 19 by the former U.S.
Chief Information Officer (CIO) for all agencies could not have applied to the
ERAM contract because it was awarded in 2002, prior to the CIO’s
recommendation.

Although FAA has independent procurement authority to develop its own
acquisition process, 20 modular contracting has been recommended for Federal
agencies for over 14 years. There are a number of Federal requirements and best
practices intended to help Federal agencies manage their IT investments more
effectively. Many of these contain modular contracting concepts that are useful in
managing aspects of IT acquisitions structured like ERAM, such as:
18
     The Clinger-Cohen Act of 1996 states Federal agencies should use modular contracting for IT acquisitions to the
     maximum extent possible.
19
     Office of Management and Budget (OMB) plan by Vivek Kundra, former U.S. Chief Information Officer, “25 Point
     Implementation Plan to Reform Federal Information Technology Management,” December 9, 2010.
20
     In DOT’s Fiscal Year 1996 Appropriations Act, Congress provided FAA with broad authority to develop its own
     acquisition process which relieved the Agency from Federal acquisition laws or regulations. FAA established its
     AMS, a set of policies and guidance designed to address the unique needs of the Agency.
                                                                                  16


• The Clinger-Cohen Act of 1996 required Federal agencies to use modular
  contracting for IT acquisitions to the maximum extent possible.

• The Raines Rules, guidance enacted by OMB in 1996 under the Clinger-Cohen
  Act, specify that major information systems investments should be
  implemented in phased, successive segments.

• The Federal Acquisition Regulations (FAR) was amended in 1998 to require
  that Federal agencies other than FAA use modular contracting to the maximum
  extent possible.

• The General Services Administration implemented a “Guide for Modular
  Contracting” in 1998, which the Department of Defense has incorporated into
  its IT acquisition guidance.

More recently, in 2010 the former U.S. CIO issued a 25-point plan for reforming
Federal IT program management. The plan recommends that agencies only
approve funding for major IT programs that use a modular approach since it has
been shown to increase success and reduce risk. With regard to the development
process, the plan also recommends that agencies lock down current software
releases and push noncritical functionality to future releases rather than developing
multiple releases at once.

FAA’s Contract Structure Prevented Effective Cost Tracking for ERAM
Deliverables
FAA’s large-scale contract structure makes it difficult to account for the individual
factors that have driven cost overruns at ERAM test sites. FAA divided ERAM
into CLINs that span several years. For example, FAA designed a single, large
CLIN that now contains almost 9 years and over $1 billion of work related to
ERAM’s software release 1. FAA included all design, development, testing, and
implementation work in the same CLIN, rather than establishing separate CLINs
and SubCLINs for each of these phases. FAA also did not establish separate
CLINs for individual en route sites, along with applicable cost targets, milestones,
and incentives. Consequently, when FAA began implementing ERAM software
release 1 at its test site at Salt Lake City in 2008, the program began to experience
problems that the Agency had difficulty managing because “implementation” was
all covered under the single, large CLIN. This CLIN structure exacerbated the
problems that led to an almost 4-year slip to the original ERAM schedule and a
cost overrun that could exceed $500 million.

FAA has since notified OMB that it will manage future ERAM software releases
by breaking out periodic cost goals and frequent milestones (i.e., use smaller
CLINs and SubCLINs). According to FAA’s ERAM Program Manager, future
software builds can be much smaller than release 1 because the program has
                                                                                                                    17


significantly improved its software core capabilities. This will allow FAA to track
costs and manage the program more effectively.

If FAA restructures the ERAM contract using smaller CLINs and sufficient
SubCLINs beginning with release 4, we estimate that at least $157 million in
funds could be put to better use by allowing FAA to track costs and manage the
program’s schedule and performance more effectively. 21

FAA Does Not Finalize ERAM’s Scope, Cost, and Performance Periods for
CLINs in a Timely Manner
FAA awarded ERAM as a letter contract in December 2002, which allows the
contractor to start work before FAA finalizes the project costs, schedule, scope of
work, and contract terms (known as contract definitization). However, this
contract practice increases risks and gives the contractor little incentive to control
costs until work is definitized. FAA’s AMS does not require a specific timeframe
for definitization. However, the ERAM contract established a timeframe for
definitizing initial CLINs and establishing terms, such as scope and cost. In
comparison, the FAR, which FAA does not follow, allows no more than 180 days
for letter contract definitization. 22 FAA did not meet its own contract terms or the
FAR benchmark of 180 days for definitizing ERAM. FAA is still working to
definitize 16 out of 57 CLINs for the contract, 23 even though the contractor has
been authorized to work on them. For example, FAA initially definitized one of
these CLINs 25 days after the date required in the contract and 48 days after
FAR’s 180-day benchmark. However, FAA has since modified this CLIN
45 times—increasing target costs by $328 million.

The ERAM Contract’s Cost Incentives Were Ineffective at Controlling
Costs
After Government Acceptance at the key site, FAA continued to pay the
contractor incentives, including over $150 million in cost incentives for meeting
target costs, even though ERAM began to experience software problems, schedule
slips, and a cost overrun of as much as $500 million. FAA’s practice of
continually increasing target costs as ERAM’s work requirements grew and
software problems increased negated the contractor’s incentive to manage contract
costs.



21
     Software release 4 is a follow-on to release 3, which focuses on adding NextGen functionality such as DataComm
     and will be funded by various NextGen programs. Funds could be used more efficiently if management took actions
     to implement and complete the recommendations. Our estimate of $157 million in funds put to better use is the lower
     end of FAA’s estimated cost range for release 4 ($157 million). We obtained these figures from FAA’s current
     ERAM CO.
22
     FAR 16.603-2(c), “Letter Contracts.”
23
     As of January 17, 2012.
                                                                                                                      18


In addition, FAA does not finalize incentive fees until the end of a CLIN’s
performance period, which could span many years. This practice does not offer the
contractor an immediate or continuous incentive. Instead, smaller incentives could
be awarded at shorter intervals, such as bi-annually, to effectively motivate the
contractor.

Since FAA has had difficulty establishing cost targets due to ERAM’s changing
requirements and software problems, award fees might provide a more effective
cost management incentive. Award fees could be tied to meeting and exceeding
performance goals that contribute to program success, such as achieving
operational readiness at remaining facilities within a target date. 24 OMB guidance
states that agencies should consider using an award fee with performance
measures designed to encourage effective cost management when it is not feasible
to determine objective incentive fee cost targets. 25

Weaknesses in ERAM’s Acquisition Workforce and Poor Contract
Management Practices Have Led to Insufficient Contract Oversight
Weaknesses in FAA’s acquisition workforce and poor contract management
practices have led to insufficient oversight of the multibillion-dollar ERAM
contract (see table 3).




24
     According to FAA’s AMS, award fees should be designed to motivate the contractor by offering additional profit for
     excellent performance in key areas that support the Government’s desired acquisition outcomes.
25
     OMB guidance requires that agencies consider an incentive for performance-based acquisitions that is most likely to
     motivate efficient and economical performance and that this incentive fee should be used when a cost target can be
     pre-determined and a formula can be used to adjust the negotiated fee over an established cost range. OMB guidance
     also stipulates that an award fee with performance measures designed to encourage economical performance should
     be considered when it is not feasible to determine objective cost targets to motivate the contractor through incentive
     fees.
                                                                                                                      19


Table 3. Weaknesses in ERAM’s Contracting Staff and Management
Practices
 Requirement or best practice for contract                      Weaknesses in ERAM’s contract
 management                                                     management
 Contracting office staff should be consistent                  ERAM has experienced high CO turnover.
 and have institutional knowledge of the                        Contracting staff rely heavily on support
 contract.                                                      contractors.

 Contract file should contain an organized                      ERAM’s contract files are disorganized,
 record of all contractual actions.                             incomplete, and not centrally located.

 When reviewing invoices, the contracting                       The COTR only performs basic checks of
 officer’s technical representative (COTR)                      invoices and does not require supporting
 should require supporting documentation to                     documentation for expenses. As a result, FAA
 prevent unallowable costs.                                     did not detect nearly $69,000 in unallowable
                                                                travel costs.

 Program operations field managers                              ERAM’s POFMs lacked training and
 (POFM), regional staff who oversee contractor                  guidance, increasing the risk that they could
 performance at facilities nationwide, should be                assign tasks that exceed contract scope and
 trained on monitoring contractor performance                   fail to detect performance problems.
 and be given guidance on the contract.

Source: OIG analysis

High Acquisition Workforce Turnover Has Resulted in a Lack of
Institutional Knowledge Needed for Effective Contract Oversight
ERAM has had eight COs in the past 9 years. FAA explained that it is not unusual
for contracts as lengthy as ERAM to experience high turnover in contracting staff.
However, because of this high turnover, ERAM’s COs lack the institutional
knowledge needed to successfully administer the complex contract. The
Government Accountability Office (GAO) reported in October 2011 that a
consistent and stable contracting staff is a critical factor for successful major
systems acquisitions. 26 The effects of high turnover are exacerbated by incomplete
and poorly organized contract files. At the time of our review, ERAM’s contract
files did not contain a complete history of all contractual actions, as required by
AMS guidance. 27 For example, FAA could not provide sufficient support for about
$28 million in performance incentive fees paid to the contractor. The file also
existed in three separate locations—one physical file and two virtual files. This
makes it difficult for newer staff to readily access and understand the contract’s
complete history. A well-maintained contract file also provides a trail of
supporting documentation in the event of litigation, audits, or congressional
inquiries.

26
     GAO Report Number GAO-12-7, “Critical Factors Underlying Successful Major Acquisitions,” October 21, 2011.
27
     AMS states basic contract files containing records of all contractual actions should be maintained by the organization
     or person administering the contract. In 2006—about 4 years after FAA awarded its ERAM contract—the Agency
     required that COs use a contract file checklist of essential contracting documents and clearances intended to support
     the complete history of an acquisition from pre-award through contract closeout.
                                                                                                               20


In addition, COs rely heavily on contract support staff. For example, during our
review, COs could neither answer our questions about the contract nor provide all
requested contract documents. Instead, they either referred us back to former COs
or to FAA’s support service contractors to provide documentation. We also found
that these support contractors write contract modifications and assist in contract
administration—tasks which are closely associated with inherently governmental
functions.

The program’s COTR also heavily relies on FAA’s support service contractors for
contract administration. For example, the COTR delegated the task of maintaining
the contract correspondence file to the support service contractors, even though the
COTR’s official designation letter indicates that the task cannot be delegated. In
addition, the COTR said that, because of the size of the ERAM contract, he is not
able to perform full reviews of contractor invoices or validate whether the
contractor actually performs the work billed. FAA’s new ERAM Program
Manager stated that the COTR—rather than performing full reviews—currently
“spot checks” all invoices to ensure that hours, charges, and details reflect actual
work performed. The COTR also assesses whether the work billed seems
reasonable. However, even though the ERAM contract allows FAA to request
supporting documentation, the Agency still does not require the contractor to
routinely provide supporting documentation for expenses, such as travel vouchers
or receipts. Consequently, FAA’s invoice review procedures were not sufficient to
identify some unallowable charges.

Prior audits have detected weaknesses in Lockheed Martin’s travel expense
policies and identified instances of unallowable ERAM travel costs. For example,
a 2006 internal audit found that a Lockheed Martin employee working on ERAM
had been paid lodging expenses for 2 days he stayed at home. 28 In addition,
Lockheed Martin recently self-reported that a former software engineer submitted
almost $69,000 in fraudulent travel expenses between February 2008 and
December 2010. 29 Despite these findings, FAA still does not require supporting
documentation for all expenses. ERAM’s ongoing history of unallowable travel
costs and FAA’s insufficient invoice review procedures creates the potential that
FAA may have unknowingly paid other unallowable expenses.

FAA also relied on POFMs, who are primarily systems engineers, to oversee the
contractor’s performance at the Agency’s 20 nationwide en route centers where
ERAM software is being implemented. Yet, the majority of POFMs we spoke to
had not been given training as technical officer’s representatives (TOR) or
guidance on the contract. For example, at one facility, the POFM had reported
28
     In response, FAA’s then-CO began requiring the contractor to submit supporting documentation to verify billed
     costs. However, Lockheed Martin did not comply with the CO’s request, as FAA did not enforce it. The following
     ERAM CO decided to retract this supporting documentation requirement in 2008—around the time FAA began
     incurring what became nearly $69,000 in fraudulent travel expenses.
29
     The sum includes only direct costs and excludes indirect costs.
                                                                                                                      21


problems with contractor performance, but he did not properly document them, so
FAA did not take action. Many POFMs we spoke to also reported that they had
not seen the ERAM contract’s Statement of Work nor been given guidance on
what they are allowed to assign the contractor, creating the potential that POFMs
could assign tasks that exceed the contract’s scope and budget.

FAA has taken actions to address some of these acquisition weaknesses. For
example, in response to OIG audit findings on FAA’s acquisition workforce, 30
FAA recently required all TORs—a term that also applies to POFMs—to train and
certify as COTRs. 31 In addition, FAA has appointed a new Acquisition Executive
to oversee the Agency’s Office of Acquisition and Business.

FAA Has Not Used Contract Management Tools Effectively
We also found that FAA has not correctly implemented management tools for
ERAM, which are intended to improve the management of costs, schedule,
performance, and risk (see table 4).

Table 4. Ineffective Use of Management Tools
                                                               Ineffective use of ERAM’s management
 Effective use of management tools                             tools
 Earned Value Management (EVM) systems                         ERAM’s EVM system does not include all
 must include all work to completion for                       work, so forecasts are inaccurate and do not
 accurate forecasts of schedule and cost                       help detect problems with the program.
 trends.

 Integrated Baseline Reviews (IBRs) should                     FAA did not complete IBRs for four of its five
 be performed early to ensure adequate                         largest contract modifications—each
 planning.                                                     exceeding $100M.

 Risk management process should provide                        Problems were discovered at key sites in
 early detection of risks.                                     June 2009, yet ERAM’s risk management
                                                               process did not detect significant risks until
                                                               almost 2 years later.

Source: OIG analysis

• EVM. FAA incorrectly implemented ERAM’s EVM system, 32 a management
  tool intended to forecast performance trends and help managers identify cost



30
     OIG Report Number ZA-2011-148, “FAA’s Policies and Plans Are Insufficient to Ensure an Adequate and Effective
     Acquisition Workforce,” August 3, 2011.
31
     In April 2011, FAA eliminated the terms “Task Order Representative” from its AMS. All persons appointed by the
     CO to support contract administration are now designated COTRs.
32
     To set up an EVM system, an integrated cost and schedule baseline is developed by time-phasing budget resources
     for defined work. As work is performed and measured against the baseline, the corresponding budget value is
     “earned.” Using this earned value metric, cost and schedule variances are identified and analyzed to forecast whether
     the program will meet desired budget and schedule goals at completion.
                                                                                                                  22


       and schedule problems early. According to national EVM standards, 33 EVM
       systems should compare performance against a baseline, which should include
       all authorized work for the program. FAA program officials stated that the
       EVM baseline for ERAM was based on the contract’s baseline and work
       breakdown structure, 34 rather than those for the overall program, as required by
       EVM standards. Despite incorrect implementation, FAA maintains that EVM
       was an accurate management tool for ERAM until the program began
       experiencing significant software problems after Government Acceptance at
       the initial key test site. However, these software problems required significant
       additional work, which FAA never accounted for in the EVM baseline.
       Without an accurate baseline that includes all required work, ERAM’s EVM
       system has not identified significant problems with the program. For example,
       although ERAM is almost 4 years behind and may be as much as $500 million
       over budget, FAA’s March 2011 EVM report stated that “all ERAM
       milestones to date have been achieved on or ahead of schedule, while meeting
       cost targets.” Three months after this EVM report, FAA rebaselined ERAM
       due to cost overruns and delays. FAA stated that it is planning to revise
       ERAM’s EVM baseline to incorporate all of the program’s work requirements.

• IBRs. FAA did not complete timely IBRs for ERAM. Both OMB and AMS
  require IBRs, which are contract management tools intended to improve
  program performance. Specifically, an IBR is an evaluation of a program’s
  baseline plan to determine whether all program requirements have been
  addressed, risks have been identified, mitigation plans are in place, and
  resources are sufficient to complete the work. However, we found that FAA
  did not conduct its initial IBR for ERAM until 337 days after contract award.
  Although AMS includes some high-level policy on IBRs, it does not specify a
  timeframe for conducting IBRs. FAA also lacked guidance at the time of
  ERAM’s contract award on how to implement AMS IBR policy. In contrast,
  guidance from other agencies, such as DOD, requires IBRs within 180 days of
  contract award. We also found that FAA did not complete IBRs—and thus did
  not complete adequate planning and risk assessments—for four out of five of
  its largest contract modifications, each exceeding $100 million. DOD’s
  acquisition regulations, 35 on the other hand, require IBRs within 180 days of
  major modifications. In 2008, FAA developed a “Program Level Integrated
  Baseline Review Guide,” and its 2010 update requires program offices to
  conduct IBRs for sole source contracts, such as ERAM, prior to definitization.

33
     OMB and AMS require major programs like ERAM to base their EVM systems on American National Standard
     Institute (ANSI)/Electronic Industries Alliance (EIA) Standard-748-A. The ANSI/EIA-748 guidelines describe the
     attributes of an effectively integrated cost, schedule, and technical performance management system.
34
     A work breakdown structure (WBS) is a hierarchically structured grouping of project elements that organizes and
     defines the total scope of the project. Each descending level is an increasingly detailed definition of a project
     component. Project components may be projects (a product-oriented WBS) or tasks (a task-oriented WBS).
35
     Defense Federal Acquisition Regulation Supplement (DFARS) is DOD’s implementation and supplementation of the
     FAR.
                                                                                                                  23


       However, the guidance does not specify a timeframe to submit IBRs for major
       contract modifications, so FAA can still approve major contract modifications
       without sufficient planning.

• Risk Management Process. FAA did not sufficiently identify ERAM’s risks
  early in the program, even though FAA developed comprehensive risk
  management process guidance in 2002 that would have applied to ERAM. In
  addition, DOD’s risk guidance states that risk management should start as early
  as possible to avoid the greatly increased costs of addressing risks later.
  Significant problems were discovered at key test sites in June 2009, 36 yet
  FAA’s risk management process for ERAM did not detect significant risks
  until January 2011—almost 2 years later. Additionally, FAA had initially
  identified only four “medium” risks and one “low” risk, despite ERAM’s
  considerable cost overruns, schedule delays, and software problems. FAA’s
  new project manager developed a June 2011 risk assessment that provided a
  more accurate portrayal of ERAM risks; it identified 28 active risk areas
  including 12 “high” risks. FAA reports indicate that it has addressed some of
  these risks. Specifically, FAA has reduced the number of ERAM’s risks from
  28 to 16, as of October 2011.

ERAM’s risks contributed to significant cost and schedule problems that required
the FAA Administrator to consider whether to terminate ERAM, in accordance
with Public Law. 37 Ultimately, FAA decided not to terminate, in part because the
Agency had already planned to rebaseline the program. 38 In June 2011, FAA’s
Joint Resources Council (JRC)—a body responsible for making authorization and
funding decisions—approved rebaselining the ERAM program. As a result, the
program’s cost variance now exceeds its original baseline by more than
15 percent, and the schedule is delayed by 48.9 percent. However, further
implementation delays could place the Agency in the position of once again
having to make a determination about program termination. Specifically, the law
requires the FAA Administrator to terminate programs funded from Facilities and
Equipment appropriations with cost or schedule variances of 50 percent or more,
unless the Administrator decides to continue the program and submits the basis for
its decision to the House and Senate. ERAM’s continuing delays may soon
increase the program’s schedule variance above this 50 percent threshold.


36
     FAA had received even earlier warnings that it would need to carefully monitor risks for ERAM, as GAO
     highlighted FAA’s air traffic control modernization programs as high-risk for 14 years, from 1995 to 2009.
37
     Public Law 104-264, “Federal Aviation Reauthorization Act of 1996,” October 9, 1996—Requires the FAA
     Administrator to consider terminating any major acquisition—specifically, those funded from Facilities and
     Equipment appropriations—that has cost or schedule variances of over 10 percent or fails to achieve at least 90
     percent of the performance goals established for the program. It also requires the FAA Administrator to terminate
     programs that have cost or schedule variances of over 50 percent or fails to achieve at least 50 percent of the
     performance goals established for the program, unless the Agency decides to continue the program and submits the
     basis for its decision to the House and Senate to continue the program.
38
     JRC Meeting Minutes, dated March 16, 2011.
                                                                                                               24


CONTINUED PROBLEMS WITH ERAM POSE RISKS TO
NEXTGEN INITIATIVES
Continued problems with ERAM will have a cascading effect on FAA’s NextGen
efforts and the Agency’s capital account now and well into the foreseeable future.
ERAM is a critical step on the path to NextGen and is the bridge for future
NextGen automation capabilities for controllers. ERAM has complex
interdependencies with key NextGen initiatives that are required for
fundamentally changing the way air traffic is managed in the United States.
Problems with ERAM will impact many aspects of NextGen, including FAA’s
ability to deliver new Performance-Based Navigation routes and transition to the
common automation platform envisioned for future NextGen capabilities.

Despite the significant program risks and unresolved issues, FAA has not
conducted a detailed assessment of ERAM’s interdependencies or impact on other
programs’ costs and schedules. Our analysis shows, however, that three of the
largest and most complex NextGen transformational programs are dependent on
the successful implementation of ERAM to meet their performance parameters.
These programs—ADS-B, DataComm, and SWIM—are allocating more than
$500 million specifically to integrate with ERAM. The following table details
individual program interdependencies to ERAM:

Table 5. ERAM Interdependencies With Key NextGen Programs
Program Description                                     ERAM Interdependencies
Automatic Dependent Surveillance-Broadcast (ADS-B)

Uses aircraft avionics and ground-based systems         FAA plans to provide the ERAM program $74M to
to provide information on aircraft location to pilots   display ADS-B data for use by controllers in the high-
and traffic controllers.                                altitude environment.

Data Communications (DataComm)

Provides two-way data communication between             FAA plans to provide the ERAM program with as
controllers, automation platforms, and flight crews.    much as $400M to develop an interface that provides
DataComm is intended to supplement rather than          controller-pilot message processing and displays
replace voice communications in all phases of           information to controllers in the en route centers.
flight.
System-Wide Information Management (SWIM)

Provides a more agile exchange of information           FAA planned to provide the ERAM program with as
through a secure, NAS-wide information web that         much as $117.7M (for SWIM Segment 1 only) to
will connect FAA systems and improve interaction        modernize and enhance its flight data processing
with other agencies, air navigation service             and external interfaces with terminal air traffic control
providers, and airspace users.                          and the Traffic Flow Management systems. However,
                                                        the SWIM Program Office terminated Segment 1
                                                        early and has only provided $41 million to ERAM.

Source: OIG analysis of FAA documents
                                                                                                                                          25


The importance of ERAM to NextGen execution is illustrated by the fact that FAA
is investing hundreds of millions of dollars on ERAM to interface with other
systems that are critical to achieve new NextGen capabilities. For example, a key
component for realizing benefits from ADS-B is displaying satellite-based
information on air traffic controller displays. Between January and June 2011, the
ERAM Program Office spent about $7 million a month in addition to ERAM
program costs for work to integrate other systems, such as ADS-B, SWIM, and
DataComm, into ERAM. The following figure shows monthly expenditures on
ERAM and the work to integrate the transformational systems with the new
system for managing high-altitude air traffic.

Figure 3. ERAM Monthly Expenditures Funded by ERAM and Other
NextGen Programs for the First Half of 2011
                          40
                                              Funded from ERAM program             Funded from other NEXTGEN programs
                          35


                          30                                                           $8.75 
    Dollars in millions




                          25

                                           $5.44 
                          20                                                                                                 $7.34 
                                                             $8.46 
                                                                         $12.26                           $4.98 
                          15
                                $4.13                                                 $26.27 

                          10              $18.91 
                                                                                                                            $15.69 
                                                             $13.14                                      $13.76 
                                $11.63                                   $10.43 
                           5


                           0
                                 Jan       Feb                Mar         Apr          May                 Jun          Monthly average

Source: FAA ERAM program office

In addition to these three transformational programs, delays with ERAM will
impede other NextGen efforts, including:

                         The implementation of FAA’s new Performance-Based Navigation routes and
                          procedures that allow aircraft to fly more flexible routes, based on aircraft
                          avionics and satellite-based navigation. New performance-based navigation
                          routes are an important stepping stone for near-term NextGen initiatives and
                          boosting capacity at already congested airports. New automated systems for
                          controllers, such as ERAM, are key to maximizing the benefits of new routes.
                                                                                  26


• Trajectory-based operations, an important NextGen capability, focus on the
  management of aircraft through all phases of flight. This capability is expected
  to predict the path of each aircraft in time and space to facilitate the transition
  from today’s ground-based radar to more accurate satellite-based systems that
  will result in better strategic management of the entire NAS and reduce fuel
  consumption by the airlines and aircraft emissions. Progress with ERAM is
  important with trajectory-based operations because FAA plans to begin to
  implementation of this capability in the high-altitude environment.

• Future software enhancements for new NextGen capabilities estimated to cost
  close to $1 billion through fiscal year 2017, including a flexible and dynamic
  airspace that will allow controllers to shift airspace segments to other
  controllers, based on weather and traffic pattern changes. However, FAA must
  fix core capabilities for managing aircraft before the new capabilities can be
  implemented.

• Common automation platform, which will combine both terminal and en route
  operations into a common automation system. Currently, FAA operates and
  maintains a diverse system of automation systems with unique displays,
  software, and hardware. FAA believes that a common automation platform will
  reduce costs, improve air traffic and airspace management, and allow the
  Agency to consolidate and realign its facilities. The problems with ERAM are
  one reason why FAA cannot determine when it can begin to develop and
  transition to a common automation platform.

Schedule delays and corresponding cost growth with ERAM have forced FAA to
reprogram funds from other FAA capital programs. According to Agency officials
responsible for capital planning and budgeting, FAA thus far has reallocated funds
from the NextGen solution sets (development efforts for NextGen capabilities and
procedures), tower replacement, electrical power systems for air traffic control
facilities, and planned technical improvements to communications and oceanic
automation systems. As we have noted in our previous work, continuing cost
growth with ERAM, especially in the current budget environment, will crowd out
other capital programs.

CONCLUSION
ERAM is a critical component of FAA’s efforts to modernize the National
Airspace System and transition to NextGen. While FAA has taken steps to
improve program management, significant challenges and risks remain to
successfully complete the program. In addition, FAA’s problems with ERAM
have revealed weaknesses with the contract vehicle, highlighting the need to
improve the management of the contract as the program moves forward. Sustained
comprehensive actions will be required to manage ERAM and its contract, achieve
                                                                                 27


full implementation of ERAM at all facilities, and gain user confidence in the
system. Ultimately, achieving NextGen’s goal of more efficient airspace for the
future will depend on FAA’s ability to effectively manage within cost and
schedule large-scale acquisitions such as ERAM to support its NextGen portfolio.
Until FAA improves its acquisition, program, and contract management practices,
the Agency will likely find itself repeating its past and current missteps in future
large-scale software-intensive NextGen acquisitions, putting the future of
NextGen at risk.

RECOMMENDATIONS
To reduce risk with further implementation of ERAM and to address
programmatic management weaknesses, we recommend that the ERAM program
office:

   1. Develop a mitigation plan to address ERAM’s core capabilities problems
      at all 20 ERAM sites before deploying new capabilities.

   2. Evaluate available options and take action to deploy an additional backup
      for ERAM until the system has become significantly more mature.

To improve ERAM’s contract structure and oversight, we recommend that FAA’s
Acquisition Executive:

   3. Revise the Contract Line Item Number (CLIN) structure to more
      effectively track ERAM costs. This should include establishing
      subordinate CLINs, cost targets, and incentives to better achieve program
      objectives, beginning with software release 4.

   4. Include a requirement in the Acquisition Management System (AMS) to
      definitize CLINs in a reasonable time period, such as FAR’s 180-day
      benchmark. Ensure that future ERAM CLINs are definitized according to
      the new requirement.

   5. Design incentives to better achieve desired program outcomes. For
      example, offer incentives over shorter intervals, such as bi-annually, to
      effectively motivate the contractor.

   6. Review AMS requirements for a contracts file list and contract
      maintenance procedures to verify that they are adequate. In addition,
      develop a process to verify that major contract files are reviewed by
      FAA’s National Acquisition Evaluation Program for compliance with
      AMS policy and best practices for contract management.
                                                                               28


  7. Develop a formal process for ERAM invoice reviews that requires
     supporting documentation, such as travel vouchers and hotel receipts.

  8. Update the performance measurement baseline for ERAM’s earned value
     management system to include all remaining work on the ERAM contract,
     including planned work that has not yet been priced and work performed
     by the Government.

  9. Develop procedures in FAA’s “Program Level Integrated Baseline Review
     Guide” to verify that integrated baseline reviews meet the requirements
     and to establish a time frame for conducting integrated baseline reviews
     after executing major contract modifications.

  10. Complete the comprehensive risk management guidance that FAA is
      currently developing, to more effectively manage acquisition risks.

To reduce risk to future NextGen related programs, we recommend that FAA:

  11. Assess current testing capabilities and limitations at FAA’s Technical
      Center and develop corrective action plans to more robustly test future
      complex software-intense air traffic systems.

  12. Require complex software-intensive systems (that are interdependent on
      other systems, such as ERAM) to be successfully tested in a live,
      operational environment, at one or more FAA air traffic facilities, prior to
      Government Acceptance.

  13. Revise AMS to better define key milestones, such as Government
      Acceptance and initial operating capability, so that milestones are clear
      measures of progress for managing major acquisitions.
                                                                                 29


AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
RESPONSE
We provided FAA with our draft report on June 13, 2012, and received its formal
response on July 24, 2012. FAA’s response is included in its entirety as an
appendix to this report. In its response, FAA states that it has made substantial
progress with ERAM, and Agency management is confident that the program can
stay within the revised cost and schedule baseline. We agree that ERAM is on
stronger footing now than when we began our review. We attribute this to
sustained management attention by FAA leadership as well as focused risk
management and close work with controllers. Throughout our review, we
communicated our views to FAA officials on actions needed to reduce risk and
strengthen contract oversight, and the Agency took steps to address our concerns.

Our draft report acknowledged that FAA has made strides toward improving the
way it tracks ERAM deliverable costs. For example, we reported that FAA
indicated that it will manage future software releases by breaking out periodic cost
goals into more discrete contractual segments and establishing frequent
milestones. In May 2012, in response to our concerns, FAA modified the ERAM
contract to begin definitizing its software implementation effort and to break large
software development efforts into smaller contract segments. This will allow FAA
to better manage its software releases.

Notwithstanding FAA’s risk mitigation efforts and the use of the system at more
facilities, considerable risk still lies ahead for completing ERAM within the
revised baseline. For example, as we have stated previously, when FAA fields
ERAM at large sites, such as New York and Washington—which are more
complex than any of the previous locations—it will likely identify new problems,
raising the risk that program costs will grow. Therefore, it is uncertain how much
ERAM will ultimately cost, how long it will take, what capabilities will be
delivered, and what trade-offs will be needed to complete deployment. The ERAM
experience represents important lessons learned for FAA as it develops and
implements even more complex software-intensive systems envisioned for
NextGen.

In responding to our recommendations, FAA concurred with 12 of our
13 recommendations and partially concurred with 1. Based on FAA’s response,
we believe the Agency met the intent of nine recommendations, but we are
requesting additional information, revised responses, and/or targeted completion
dates for recommendations 1, 7, 8, and 12, as detailed below. All
recommendations will remain open pending completion of planned actions.

FAA concurred with recommendation 1, to develop a mitigation plan addressing
ERAM’s core capabilities problems at the 20 sites, and asked that we close the
                                                                                  30


recommendation. However, FAA continues to add new capabilities while fixing
problems identified at the sites. As we noted in our report, this has compounded
problems with ERAM’s implementation—an issue that FAA recently experienced
at Houston center, which hindered efforts to use the system on a full-time basis.
Therefore, we request that FAA provide us with its plans to mitigate risks and
related milestones for deploying ERAM to the remaining sites, such as New York.

FAA concurred with recommendation 7, stating that controls are in place to ensure
that its “spot-checking” approach for reviewing invoices meets the criteria for
balancing the effort of the reviews with the risks for potentially fraudulent
charges. However, the intent of our recommendation was to ensure that FAA’s
invoice “spot checking” reviews include reviewing supporting documentation for
travel costs, such as travel vouchers and hotel receipts. To mitigate the incidence
of additional fraudulent travel charges billed to the ERAM contract, we are
requesting that FAA clarify whether its “spot-checking” approach will include a
review of supporting documentation for billed travel costs, such as travel vouchers
and hotel receipts.

FAA partially concurred with recommendation 8. By September 30, 2012, FAA
plans to restructure its EVM measurement baseline to adopt a product oriented
approach that is aligned to program milestones, such as achieving IOC at a
specific en route site. This will improve the reliability of measurements of cost and
schedule variances impacting the program. In addition, although FAA agrees that
planned future work should be included in the EVM measurement baseline, as
required by FAA’s acquisition guidance, it has not yet determined whether or how
it plans to implement this requirement for ERAM. For example, FAA is unsure
whether to include planned work in the EVM system for ERAM when
programmatic work is unstable or programmatic requirements and milestones are
not mature. OMB guidance incorporates national EVM standards that state EVM
systems should compare performance against a baseline that includes all
authorized work for the program. Accordingly, the recommendation is unresolved
pending FAA’s determination of whether it intends to include all planned
authorized work in the EVM measurement baseline.

FAA concurred with recommendation 12, but its response does not meet the intent
of the recommendation. FAA states that AMS prescribes an approach that supports
the “notion” that complex capabilities must be successfully tested in a live,
operational environment at one or more facilities before Government Acceptance.
However, as we note, live operational testing did not occur with ERAM before the
Government accepted the system and assumed the responsibility to fix ERAM’s
problems. This was partly due to the fact that the Government Acceptance
milestone is inconsistently defined and interpreted by individual program
managers, as we reported. Therefore, we are asking FAA to reconsider its
response and provide more specific information on its planned actions and target
                                                                                 31


completion dates to not only require, but also ensure that complex software-
intensive systems are tested in a live operational environment at one or more FAA
air traffic facilities prior to Government Acceptance.

ACTIONS REQUIRED
We consider recommendations 2, 3, 4, 5, 6, 9, 10, 11, and 13 resolved but open
pending the completion of planned actions. For recommendations 1, 7, 8, and 12,
we request that FAA provide target milestones, additional information, and/or
reconsider its response, as specifically detailed above. In accordance with
Department of Transportation Order 8000.1C, we request that FAA provide us this
additional information within 30 days of this report.

We appreciate the courtesies and cooperation of Department of Transportation
representatives during this audit. If you have any questions concerning this report,
please call Jeff Guzzetti, Assistant Inspector General for Aviation and Special
Programs, at (202) 366-0500, or Mary Kay Langan-Feirson, Assistant Inspector
General for Acquisition and Procurement Audits, at (202) 366-5225.

                                         #

cc:    FAA Audit Liaison, AAE-100
       OST Audit Liaison, M-1
                                                                                  32



EXHIBIT A. SCOPE AND METHODOLOGY
We conducted this performance audit between September 2010 and June 2012 in
accordance with generally accepted Government auditing standards as prescribed
by the Comptroller General of the United States. Those standards require that we
plan and perform the audit to obtain sufficient, appropriate evidence to provide a
reasonable basis for our findings and conclusions based on our audit objectives.
We believe that the evidence obtained provides a reasonable basis for our findings
and conclusions based on our audit objectives.

We conducted onsite interviews with management officials, technical operations
personnel, air traffic controllers, contract oversight staff, and contractor staff at
FAA’s two key test sites, as well as at five selected en route centers that were
planned to begin initial operations in fiscal year 2011. We visited the FAA
Technical Center in Atlantic City, NJ, to examine software testing, discuss the
Center’s testing limitations, and interviewed the manager of ERAM’s contract
oversight staff. We interviewed FAA program officials at FAA Headquarters,
National Air Traffic Controllers Association (NATCA) union officials,
Professional Aviation Safety Specialists (PASS) union officials, and officials from
Lockheed Martin and Raytheon to discuss FAA’s implementation of ERAM. We
interviewed ERAM contracting staff and support contractors to discuss contract
oversight. We met with training officials at FAA Headquarters and FAA Training
Academy in Oklahoma City, OK. We interviewed FAA’s senior officials, Air
Traffic Organization officials, Joint Planning and Development Office officials,
and NextGen Integration and Implementation officials to discuss the impact of
ERAM delays on NextGen initiatives. We spoke with the Air Traffic
Organization’s Office of Safety about its ERAM assessment. Finally, we met with
MITRE officials to discuss its ERAM assessment and determine how FAA should
align its future investments as its move forward with NextGen. Exhibit B lists all
organizations we contacted during this audit.

In addition to conducting interviews, we also reviewed relevant policies and
guidance from the Office of Management and Budget, the Government
Accountability Office, FAA’s Acquisition Management System, and the
Department of Defense, as well as other applicable laws and regulations. We
collected and analyzed program data, FAA’s National Airspace System and
NextGen Enterprise Architecture documents, cost and schedule projections for
ERAM and other NextGen programs, problem trouble reports, the ERAM
contract, and other pertinent documents and records. Our assessment of the ERAM
contract included reviews of contract terms, contract modifications, contract costs,
incentive fees, and pre-award contract documents. We also reviewed FAA’s use of
program management tools, such as earned value management and integrated
baseline reviews. Further, we reviewed all 81 bi-weekly invoices for onsite


Exhibit A. Scope and Methodology
                                                               33


maintenance support to determine if FAA required enough supporting
documentation to detect unallowable costs.




Exhibit A. Scope and Methodology
                                                                       34



EXHIBIT B. ORGANIZATIONS VISITED OR CONTACTED
FAA Facilities

FAA Headquarters

Denver Air Route Traffic Control Center

Salt Lake City Air Route Traffic Control Center

Seattle Air Route Traffic Control Center

Minneapolis Air Route Traffic Control Center

Albuquerque Air Route Traffic Control Center

Houston Air Route Traffic Control Center

Los Angeles Air Route Traffic Control Center

Chicago Air Route Traffic Control Center

Oakland Air Route Traffic Control Center

FAA Training Academy at the Mike Monroney Aeronautical Center

FAA Accounts Payable Office at the Mike Monroney Aeronautical Center

FAA William J. Hughes Technical Center

Other Organizations

Lockheed Martin Information Systems & Global Solutions

Raytheon Network Centric Systems

MITRE Corporation

National Air Traffic Controllers Association (NATCA)

Professional Aviation Safety Specialists (PASS)

CEXEC, Inc.

TASC, Inc.

Evans Incorporated


Exhibit B. Organizations Visited or Contacted
                                                                    35



EXHIBIT C. MAJOR CONTRIBUTORS TO THIS REPORT

Office of Aviation and Special Program Audits
Barry DeWeese                           Program Director

Joseph Hance                            Project Manager

Sean Woods                              Senior Auditor (Lead)

Won Kim                                 Senior Auditor

Vicki Smith                             Analyst

Arthur Shantz                           Technical Advisor

Audre Azuolas                           Writer-Editor

Office of Acquisition and Procurement Audits
Terry Letko                             Program Director

Dory Dillard-Christian                  Project Manager

Stacie Seaborne                         Senior Analyst

Jill Cottonaro                          Senior Analyst

Amanda Watson                           Senior Auditor

Rachel Miller                           Senior Auditor

David Lahey                             Auditor

Meghann Noon                            Auditor

Patti Lehman                            Auditor

Christina Lee                           Analyst and Writer-Editor




Exhibit C. Major Contributors to This Report
                                                                                         36


APPENDIX. AGENCY COMMENTS


                    Federal Aviation
                    Administration

Memorandum
Date:      July 24, 2012
To:        Jeffrey B. Guzzetti, Director, Assistant Inspector General for Aviation and
           Special Program Audits
From:      H. Clayton Foushee, Director, Office of Audit and Evaluation, AAE-1
Subject:   FAA’s Response to the Office of Inspector General Draft Report on En Route
           Automation Modernization (ERAM) program



The Federal Aviation Administration (FAA) has made substantial progress on the ERAM
program beyond that conveyed in the Office of Inspector General (OIG) draft report. The
FAA has already implemented several of the OIG’s recommendations, and the FAA
disagrees with the draft report’s statements that the program is likely to incur over $150M
in costs above its new baseline and delays into 2016. Moreover, the FAA finds it
disconcerting that the OIG draft report failed to recognize or acknowledge the substantial
recent progress made by the agency to place the ERAM program back on a strong
footing, and some of the OIG’s findings are based upon out of date information.

The original ERAM program baseline has been modified to include a $330M cost
variance and a three-year, eight-month schedule variance. However, the program was
re-baselined in June 2011 and is currently operating within that new baseline. The last
site Operational Readiness Date (ORD) milestone shifted from December 2010 to August
2014.

Although the agency will continue to adjust deployment dates for individual sites within
the approved baseline, there is a high degree of confidence in the program’s final
completion date. As anticipated, since re-baselining the FAA has also continued to
identify software related issues that affect ERAM performance, particularly as new
capabilities are implemented, and more sites are brought on-line. The FAA anticipates,
however, that software fixes will be implemented within the boundaries of the current
approved baseline.




Appendix. Agency Comments
                                                                                           37


The OIG report should recognize a number of major deployment milestones that have
now been accomplished, including:

•   Achieving Initial Operating Capability (IOC) at seven more sites, bringing the current
    total to nine sites.
•   Achieving ORD at two of those nine sites, and achieving continuous operations at
    another three (meaning they are operating on ERAM with no planned fall-back to the
    legacy HOST system), while the remainder continue to work through the progression
    of longer and longer operational runs toward continuous operations.
•   Declaring IOC on the first ERAM software release enabled with Automatic
    Dependent Surveillance Broadcast (ADS-B), allowing for operational use of both
    ERAM and a key NextGen program in Houston.
•   Decommissioning of the legacy HOST system at Seattle and Salt Lake Centers.

The growing level of ERAM-enabled operations has led to multiple instances where
nearly one half of the nation's air traffic was being served by ERAM-based air traffic
control procedures. Since December of 2011, the system has accumulated over 2,600
hours of operations for newly IOC'd sites other than Seattle and Salt Lake, across a range
of varying airspace needs and traffic volumes. The program is well positioned to
continue to activate sites within the current budget and schedule as planned into FY13.

The ERAM acquisition team now maintains firm oversight and control of the program.
Through key management changes of personnel overseeing the project, including the
appointment of a new Contracting Officer in October 2011, FAA has reinforced its ability
to oversee and administer all contract activities. Over the last six months, the team has
negotiated and definitized a number of significant undefinitized contract actions valued at
over $374M. Portions of the negotiations included establishing a more modular contract
structure while incentivizing performance. Contract provisions have been established to
track performance and formally measure the results. The associated performance
incentives are detailed in the contractually established release plan. This plan delineates
all of the activities required to meet the contract schedule and program requirements.

The shared obligations of such activities force both the FAA and the contractor to track
progress and limit change, and all changes now have a directly traceable impact on the
software release plan and ability to achieve each milestone. The milestones are directly
tied to the contract incentives and the ability of the contractor to earn the negotiated fee
for performance. These activities have occurred in conjunction with the planning and
developing of acquisitions and documents in support of future software releases and
various Contractor Depot Level Support (CDLS) activities.

Beginning in early 2011, the Program Office has undertaken a series of management
initiatives that are also helping to get the program back on track. This includes
addressing strategic, structural, process, personnel, and incentive aspects of the program’s
overall approach. Specific examples in each of these areas are highlighted below, and
have been implemented in the past 18 months. These improvements are reinforced here



Appendix. Agency Comments
                                                                                        38


to emphasize the differences between where the program currently stands and many of
the challenges highlighted in the report:
-   Strategy: The program has addressed strategic changes that create a formula for
    success. This new strategic direction is driven by the following program artifacts:
    the In-Service Decision (ISD) Action Plan, the ERAM Process Improvement Plan,
    the updated Office of Management and Budget Improvement plan, and the artifacts
    used in conjunction with the re-baselining of ERAM by the Joint Resources Council.
    In an effort to enhance the focus on operational needs and improve organizational
    integration with 2nd Level Support, the work to transition Program Office ownership
    to 2nd Level has been accelerated (began in October 2011). Furthermore, a revised
    waterfall schedule was developed to allow the time and attention necessary to
    efficiently and effectively address facility needs. Based on the outcomes highlighted
    earlier in this document (i.e. accumulation of IOC and ORD milestones), the FAA
    feels confident this strategic direction is the correct one.

-   Structure: The Program Office redefined the specific program structure with a re-
    baseline of funding and schedule. New program governance was put in place in early
    2011 which included the labor unions (Article 48 working group), a steering
    committee and regular Program Management Reviews that include a cross-section of
    key program stakeholders. There were also several process improvements made
    within the program’s communications and management. For example, there was a
    realignment of personnel for a more streamlined approach and new communication
    channels established to clarify decision authority across organizational boundaries. In
    addition, the Program Office and Article 48 working group standardized procedures
    for how sites transition from IOC to continuous operations on ERAM.

-   Process: ERAM has implemented a series of process improvements across all
    aspects of the system lifecycle, including in the areas of release management,
    software build packaging, test, deployment, and issues management. This work has
    improved the quality defect rate of software coming out of test, the effective
    collaboration with Union partners, the flow of information to the field facilities, and
    the ability to integrate complex data needed for planning. Specific examples of these
    changes include:
       o The use of the National User Team to provide Air Traffic (AT) perspective
         and collaboration on the design of software fixes.
       o The use of AT Subject Matter Experts to support site software activation
         activities, training, and comparable local planning processes.
       o Improved communications evidenced by revised briefing packages and
         increased presence of support personnel at the site, to more effectively
         manage the release of software to the facilities.

-   People: The program has optimized its resourcing strategy to align with both
    ERAM’s strategic goals as well as with the operational vision of the FAA. This
    began in early 2011, with the appointment of a new Director of Program Operations.
    Since then, the FAA has institutionalized its new Program Management Office,



Appendix. Agency Comments
                                                                                       39


    created this fiscal year. Additional personnel changes in the past year include the
    assignment of a new program manager, a new manager of Air Traffic Manager
    Programs, and a new Director of Air Traffic Systems. New working relationships
    with the National Air Traffic Controllers Association and the Professional Airway
    Systems Specialists (via collaborative work groups initiated in 2011), as well as with
    Lockheed Martin (who has also introduced new resources in key positions in the past
    18 months) have improved coordination and integration of the team.

-   Rewards: New rewards on the program include a range of opportunities. In working
    with Lockheed Martin, the new contract provides new incentives based on the
    successful achievement of future milestones (described in more detail below). More
    informally, communications in response to achievement of milestones, all-hands
    workforce meetings (where milestones are highlighted and hard-work
    acknowledged), and leadership recognition of positive achievements all incentivize
    program stakeholders.

RECOMMENDATIONS AND RESPONSES

Recommendation 1: Develop a mitigation plan to address ERAM’s core capabilities
problems at all 20 ERAM sites before deploying new capabilities.

FAA Response: Concur. The ERAM program has already completed this plan.
Release 2 software builds--EAB0300 (July 15, 2011), EAB1100 (August 18, 2011),
EAB1200 (December 5, 2011) and EAB1300 (April 24, 2012)--have been deployed to
address identified core functionality issues. Since the time that “core functionality”
issues were identified in spring of 2011, the program has achieved the following
milestones that demonstrate core functionality has been substantially addressed within the
system:
•   The two program key sites, ZSE (Seattle, WA) and ZLC (Salt Lake City, UT), have
    achieved their ORD, and the legacy HOST system, has been decommissioned.
•   Seven new sites after the key sites have achieved IOC.
•   ZDV (Denver, CO), ZMP (Minneapolis, MN), and ZAB (Albuquerque, NM) have
    begun use of ERAM for continuous operations.
•   ZHU (Houston, TX) has successfully demonstrated the operational use of ADS-B
    capability in ERAM through limited operational runs.

Depending upon the definition of “new capabilities,” many planned ERAM software
release 3 functions augment and strengthen core functions (i.e. ADS-B integration should
improve surveillance and radar processing accuracy, among other examples). More
specifically, with release 3, the program has already implemented new functionality to
include ADS-B and System Wide Information Management and has begun development
on release 4 to support other core programs. As such, adding “new capabilities” to future
software builds will in many cases act to strengthen ERAM core functionality
capabilities. While this approach may introduce software complexities, the agency does
not believe that these complexities constrain its ability to address core functionality in
ERAM. Evidence of this can be seen in the following examples:


Appendix. Agency Comments
                                                                                                                     40


•     Since activating the release 3 software baseline for software development, test, and
      deployment activities, an additional three sites have entered continuous operations
      and two sites have entered ORD (as noted above). This was achieved in conjunction
      with the pursuit of additional NextGen capability.

•     In addition, the instances of problems identified as a part of site testing on a “pre-
      build” basis has dropped significantly through release 3. The number of problems
      found 1 during site test processes for the last three software builds appear below,
      spanning both release 2 and release 3:
      o EAB1300 (made operationally available April 24, 2012) - 61 total (34 Critical, 27
        highs of interest)
      o EAC1003 (made operationally available June 7, 2012) - 42 total (16 Critical, 26
        highs of interest)
      o EAC1100 (planned to be made operationally available June 9, 2012) - 29 total (15
        Critical, 14 High of interest)

Accordingly, the FAA requests that this recommendation be closed.

Recommendation 2: Evaluate available options and take action to deploy an additional
backup for ERAM until the system has become significantly more mature.

FAA Response: Concur. As of May 2012, modifications to the Enhanced Back Up
System (EBUS) have been deployed and EBUS will remain operational until ERAM’s
operational stability (validated and measured through quantitative data on system
availability, failure rates of system components, and the like) validates that the system is
sufficiently stable 2. The ERAM Program Office and 2nd Level Engineering organizations
are currently assessing the costs and benefits of operating EBUS beyond FY12 and will
make a decision on the need for sustainment of EBUS, or alternatives and associated
costs, by the end of FY12.

Recommendation 3: Revise the Contract Line Item Number (CLIN) structure to more
effectively track ERAM costs. This should include establishing subordinate CLINs, cost
targets, and incentives to better achieve program objectives, beginning with software
release 4.

FAA Response: Concur. The recent negotiation/definitization of the “ERAM FY12/13
Site Waterfall Proposal,” completed in May 2012, included the establishment of a
contract structure that designates efforts under the software development CLIN into Sub-
CLINs segmented by software releases. Subsequent releases will be assigned
sequentially by Sub-CLIN. Cost targets and incentives are accordingly established and
tracked at the Sub-CLIN and individual software release level, as are the associated cost


1
    Note these are issues found and resolved during the test phase of each build. They do not represent a count of issues
    found during operational use of ERAM.
2
    EBUS was originally deployed between 2004 and 2006 as a back-up to ERAM. More recent modifications allow for
    continued maintenance of EBUS beyond the decommissioning of the legacy HOST system.


Appendix. Agency Comments
                                                                                            41


accounts. This recommendation is now fully implemented, and the FAA requests that it
be closed.

Recommendation 4: Include a requirement in AMS to definitize CLINs in a reasonable
time period, such as FAR’s 180-day benchmark. Ensure that future ERAM CLINs are
definitized according to the new requirement.

FAA Response: Concur. The FAA will review current Acquisition Management
System (AMS) language regarding definitizing changes, and revise accordingly to ensure
it requires action within a reasonable time period. This review will be completed by
September 30, 2012.

Since December of 2011, the ERAM acquisition team has completed negotiations,
definitized, or is in the process of definitizing, all undefinitized contract actions, with the
exception of datacom S1P1 proposal preparation (which is in progress) and
approximately $70K of legacy miscellaneous efforts falling under three CLINs.
Specifically, En-Route Information Display System (ERIDS) Option 3 (definitized
February 15, 2012), ERIDS Option 4, Legacy Display System Replacement (DSR) CDLS
(definitized June 7, 2012) and the FY12/13 Site Waterfall efforts (definitized May 23,
2012), having a combined value in excess of $374M, spanning over 25 CLINs/sub-
CLINs, are now definitized. Acquisition schedules not exceeding 180 days are in
development for future work including release 4 activities (R.4.1 Air Borne Re-Route /
Ground Interval Management and R.4.2 Data COMM S1P1).

Recommendation 5: Design incentives to better achieve desired program outcomes.
For example, offer incentives over shorter intervals, such as bi-annually, to effectively
motivate the contractor.

FAA Response: Concur. The contract CLIN structure was revised as of the completion
of the contract renegotiation in May 2012, to incentivize performance based upon
milestones specific to operational software releases. The work on redesigning these
incentives began in March of 2011 and was resolved with the negotiation of the new
contract. A significant portion of what was previously a one-time fee incentive has been
allocated to five performance targets for each operational release (starting with software
release EAC1200). Each of these five performance targets has mandatory and challenge
success criteria that must be achieved for the partial or complete award of an incentive
fee. The performance-based incentive milestones for each operational software release
are assigned a specific contract designation by Sub-CLIN. This more segmented and
modular approach will facilitate specific tracking and verification of the milestones by
the Technical Officer, Contracting Office (CO) and the Quality Reliability Officer. The
specific measures are tied to a contractually established release plan that identifies the
milestone dates as well as the supporting detailed activities and their requisite schedule
dates. FAA requests that this recommendation be closed.

Recommendation 6: Review AMS requirements for a contracts file list and contract
maintenance procedures to verify that they are adequate. In addition, develop a process



Appendix. Agency Comments
                                                                                        42


to verify that major contract files are reviewed by FAA’s National Acquisition Evaluation
Program for compliance with AMS policy and best practices for contract management.

FAA Response: Concur. The FAA will review published AMS contract file checklists
and maintenance procedures for adequacy and applicability. This review will be
completed by September 30, 2012. Additionally, the FAA’s National Acquisition
Evaluation Program will continue to include major contract files in its annual sampling
for onsite reviews.

The FAA AMS required checklists have been included and completed for all ERAM files
and contract modifications since the issuance of Modification 90 in December 2010.
Assurance that procedures are being followed is being facilitated by review of all
modifications to the contract. Such reviews include, but are not limited to, the ERAM
CO's, Contracting Officer Technical Representative, Contracts Manager and FAA legal
counsel. The FAA has also initiated a Contract Administrative Review process in which
major contracts are briefed by the CO in detail to a FAA contract management panel,
including the Director of Contracts. ERAM Contract number DTFA01-03-C-00015 was
the first briefing under this FAA initiative. The briefing was successfully accomplished
on February 24, 2012. This approach will be repeated for future contract ERAM contract
modifications as well. Based upon actions already taken, the FAA requests that this
recommendation be closed.

Recommendation 7: Develop a formal process for ERAM invoice reviews that requires
supporting document documentation such as travel vouchers and hotel receipts.

FAA Response: Concur. Controls continue to be in place ensuring the “spot-checking”
approach meets the requisite criteria for balancing a reasonable effort of detailed invoice
reviews with the risks these reviews mitigate – potentially incorrect or fraudulent charges
to the FAA. FAA’s best-practices include a combination of training and lessons-learned
activities to help educate contracting staff about the nature of invoice reviews. In
addition to adhering to and imposing compliance with FAA Cost Principles and AMS
clause 3.2.4-5 “Allowable Cost and Payment,” the ERAM team retains financial
spreadsheets and follows practices for processing vouchers/invoices consistent with FAA
procurement guidance section T3.10.1, appendix D.7. Based upon the availability of this
guidance, and in following these two standards, the FAA believes that the OIG
recommended formal process is in place and is being followed. Thus, the FAA requests
that this recommendation be closed.

Recommendation 8: Update the performance measurement baseline for ERAM’s
earned value management system to include all remaining work on the ERAM contract,
including planned work that has not yet been priced and work performed by the
Government.

FAA Response: Partially Concur. The ERAM program is expanding its existing Earned
Value Management (EVM) approach to be a program-wide performance reporting tool
rather than solely focusing on the prime vendor activities. Non-Prime Cost Performance



Appendix. Agency Comments
                                                                                        43


Reports (CPR) have been generated starting in April 2012. These CPR will be integrated
with the prime vendor reports which have been restructured to follow a product oriented
Work Breakdown Structure better aligning to program milestones. This approach
provides a range of benefits including more holistic reporting of progress against
milestones and more accurate insight into anticipated cost or schedule risk against those
milestones. In some cases, the FAA agrees that adding planned, future work that has not
yet been fully priced would benefit from inclusion in the baseline. However, the business
rules for addressing this should include considerations such as the maturity of the
associated requirements, maturity of milestones and commitments made within and
outside the agency, and the stability of the work program itself so as to not introduce
unnecessary variability or volatility in the EVM reporting. Because the longer-range
future requirements are not fully developed, the FAA is reluctant to fully concur with
regard to the inclusion of all ERAM-related contract work into the baseline. The FAA
will develop the initial implementation of this performance measurement baseline and an
associated proposal for how to include planned future work into this EVM system by
September 30, 2012.

Recommendation 9: Develop procedures in FAA’s “Program Level Integrated Baseline
Review Guide” to verify that integrated baseline reviews meet the requirements and to
establish a time frame for conducting integrated baseline reviews after executing major
contract modifications.

FAA Response: Concur. The FAA EVM Focal Point began an initiative in October
2011 to track and ensure Integrated Baseline Reviews (IBR) are conducted on major
programs in accordance with the AMS Policy and the IBR Guide. The AMS Policy
Section 4.16 EVM requires the conduct of IBR. The FAA’s Program Level IBR Guide
contains the procedures in section 2.0 used to verify that integrated baseline reviews meet
the requirements as stated in AMS Section 4.16 EVM. Section 2.0 Program Level IBR
Process provides the necessary steps for IBRs, they include the preparation of an IBR
Plan, the approval of the IBR Plan, IBR preparation and conduct, the preparation of
findings, the development and approval of an action plan, and the closure of the actions
contained in the plan. Each step identifies the responsible office and the process step
description. The IBR Guide also provides the time frame for conducting the IBR for
major contracts, and if it is not conducted prior to contract award, it must be conducted
within 90 to 180 days of contract award or program baseline establishment. Currently,
the Guide does not specifically state that an IBR is required after executing major
contract modifications. The IBR Guide will be revised to make conducting an IBR after
the execution of a major contract modification a requirement by September 30, 2012.

Recommendation 10: Complete the comprehensive risk management guidance that
FAA is currently developing, to more effectively manage acquisition risks.

FAA Response: Concur. While the FAA agrees that comprehensive risk management
guidance is needed to effectively manage acquisition risks, the risk management toolkit
referenced in this recommendation was completed in 2006. The risk management toolkit
was based on the Risk Management section of the Systems Engineering Manual



Appendix. Agency Comments
                                                                                         44


completed in 2002. In a recent update to FAA Acquisition System Toolset, the link
published inadvertently directed users to a track changes version of the toolkit rather than
the final version. If the OIG used this previous link, it may have appeared that the
guidance was not completed. Accordingly, the FAA requests that this recommendation
be closed.

Recommendation 11: Assess current testing capabilities and limitations at FAA’s
Technical Center and develop corrective action plans to more robustly test future
complex software-intense air traffic systems.

FAA Response: Concur. The FAA shares OIG’s perspective that it is prudent to
continually assess capabilities and limitations and develop corrective actions to improve
upon our processes and capabilities for all aspects of testing. This is accomplished
through the engagement of cross organizational teams to identify test and laboratory
requirements and new processes to support program objectives. As issues arise,
laboratory managers work with the laboratory users to determine how to improve current
testing capabilities and take corrective action as needed.

As part of the current ERAM regression testing conducted at the William J. Hughes
Technical Center, ERAM is regularly connected with the following live interfaces: En
Route, Oceanic, Terminal, Surveillance, Weather, and Traffic Management. This testing
is conducted prior to deployment of an ERAM software release. Additionally, in support
of the International Civil Aviation Organization 2012 program, the International Upgrade
to Flight Plan Processing, ERAM has established live connections to both Canada and
Mexico. These live connections were established in 2010 to support the testing which
commenced in late 2011 and continues through 2012.

In addition to the increased use of live interfaces, the Technical Center has improved its
simulation capabilities. Starting in early 2011 and continuing through 2012, simulation
hardware has been upgraded to allow the simulation of any or all surveillance capabilities
(i.e., radars, ADS-B, etc.) used at air traffic control sites. The number and complexity of
the simulation scenarios have been improved to allow two ERAM systems and three
Terminal systems to be interfaced and run simultaneously. Another example of improved
testing capabilities is the incorporation of a shadow mode capability which has been
established with several field sites. This effort started in late 2009 and the Standard
Terminal Automation Replacement System test team continued to enhance the capability
in 2010 to support deployment of a software system release to Philadelphia (PHL). This
capability enables the sites’ live radar and flight data information to be utilized at the
Technical Center over FAA Telecommunications Infrastructure / Bandwidth Manager
(currently used for the Terminal Automation Modernization Replacement test program).

As a result of the increased simulation capabilities, the number of lab runs has increased
for ERAM testing. The increased demand for lab resources has necessitated the
installation of a fifth ERAM testbed to support current ERAM and future NextGen
testing needs (i.e., DataComm). This new ERAM laboratory is expected to be available
in January 2013 and will have the same capabilities as the other ERAM labs with


Appendix. Agency Comments
                                                                                          45


connections to the various National Airspace System (NAS) laboratories and live
interfaces throughout the Technical Center.

The Technical Center continues to enhance its network infrastructure and connectivity to
other laboratory capabilities and assets internally and externally, using a Live Virtual
Constructive Environment for distributed simulation and testing activities to support
NextGen. A recent example of this capability expansion includes network connectivity to
the Florida Test Bed, National Aeronautics and Space Administration North Texas
Facility, Department of Defense (DoD) Research and Engineering Network (DREN), and
Boeing.

The Technical Center is also exploring tools that could provide the basis for a System of
Systems Assessment Platform (SoSAP) for NextGen. SoSAP is a simulation architecture
similar to those used by the DOD for concept exploration, requirements definition, and
testing complex software-intensive systems. A robust SoSAP would support large scale
system testing by using software agents and emulated systems with the system under test
to evaluate system behaviors and interactions inherent within complex systems. SoSAP
could support multiple phases of the AMS and Ideas to In-Service Process. A
demonstration of an early SoSAP prototype, leveraging DOD experience, was provided
to the Technical Center Director in May 2012.

The Technical Center has also improved their testing processes, with all of the NextGen
Organization’s (ANG) Technical Center test organizations and the Laboratory Services
Division certified to the International Organization for Standardization (ISO) 9001:2008
quality management standard. The ISO certification provides consistent best practices,
standards, and procedures across the ANG test and laboratory organizations. As an
example of process improvement, the Technical Center has increased the use of FAA
field specialists in the design and execution of system tests.

Additionally, the Air Traffic Systems (ATS) organization, within the Program
Management Office (AJM), has begun an assessment of the test capabilities currently at
its disposal. This assessment is envisioned to include a review of test assets and
processes, gaps in capabilities needed to support known future NextGen programs, and
best-practices from other programs that could be expanded or institutionalized.
Stakeholders for this assessment would include personnel from AJM, ANG, and various
aspects of the operation that currently support test (including facility and operational
service unit personnel). This work is planned to produce a cost-benefit analysis (i.e.
business case), requirements, and associated work plan, to close the gaps and implement
an enhanced, future-state test capability. ATS plans to deliver this business case,
requirements, and work plan by the end of FY13.

Recommendation 12: Require complex software-intensive systems (that are
interdependent on other systems, such as ERAM) to be successfully tested in a live,
operational environment, at one or more FAA air traffic facilities, prior to Government
Acceptance.




Appendix. Agency Comments
                                                                                         46


FAA Response: Concur. The approach prescribed within the AMS currently meets this
recommendation and fully supports the notion that complex capabilities must be
successfully tested in a live, operational environment at one or more FAA facilities prior
to full Government Acceptance (GA). Completion and full closure of GA is an iterative
process over the lifecycle of a program. Some level of GA is required in the program’s
initial implementation to enable the use of the system or service in a live, operational
environment (i.e. before it can enter the NAS). GA of any system or service is driven by
the ability of that system or service to meet the required specifications developed as part
of the contract between the government and the vendor.

Controls exist within the AMS to address the OIG’s recommendation at incremental
stages. These include the following:
     1. Factory Acceptance Testing Milestone - the hardware and software acceptance
        of the functional specification requirements from the prime contractor;

     2. Interface Acceptance Milestone - integration and testing utilizing live interfaces;
        and

     3. Site/System Acceptance Test Milestone - testing required at the site to meet the
        IOC program milestone.

Beyond ERAM, this approach to GA has and will continue to guide the implementation
of the FAA’s other systems. This is prescribed in the AMS and is aligned to the OIG’s
recommendation. The FAA requests that this recommendation be closed.

Recommendation 13: Revise the Acquisition Management System to better define key
milestones, such as Government Acceptance and initial operating capability, so that
milestones are clear measures of progress for managing major acquisitions.

FAA Response: Concur. Each of the key milestones noted (GA, IOC, and in-service
decision) are defined by the current AMS. In their current form, the definition of GA,
IOC, and in-service decision represent critical and specific milestones each program must
proceed through. However, the FAA recognizes that, in light of the practices on
programs such as ERAM, the agency can review the definitions in the AMS to further
establish clear criteria for entrance and exit at the referenced key milestones. The FAA
has started this review and anticipates that it will be completed by October 30, 2012.




Appendix. Agency Comments
